                                         OFFICE OF INSPECTOR GENERAL
                                                                 MEMORANDUM




DATE:          August 18, 2005

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on Audit of the E-rate Program at St. Joseph High School, St.
               Croix, U.S. Virgin Islands

The Office of Inspector General (OIG) has completed an audit of the E-rate Program
benefits received by St. Joseph High School (the School), a beneficiary of the Universal
Service Fund (USF). A copy of the Audit Report, entitled “Final Report on Audit of the
E-rate Program at St. Joseph High School, St. Croix, U.S. Virgin Islands” is attached.
The objective of this audit was to assess the beneficiary’s compliance with the rules and
regulations of the USF program and to identify areas in which to improve the program.

In January 2003, the OIG and the Universal Service Administrative Company (USAC)
entered into a Memorandum of Understanding (MOU) with the Department of the
Interior (DOI) OIG to conduct audits of E-rate beneficiaries. This audit was conducted
by DOI OIG under the terms of this MOU.

Based on the results of the audit, we have concluded that the School did not comply with
key requirements of the E-rate program for funding year 2000. The audit resulted in five
(5) findings and $136,849 in potential fund recoveries. We recommend that the Wireline
Competition Bureau direct the Universal Service Administrative Company (USAC) to
recover the amount of $136,849 disbursed on behalf of St. Joseph High School in funding
year 2000.

DOI OIG held an exit conference with the School’s Principal on January 14, 2004 to
discuss a preliminary draft of this report, which was provided to the School on January 8,
2004. The School Principal expressed agreement with the report’s findings.

On September 1, 2004, we provided a copy of our draft audit report to the Chief of the
Wireline Competition Bureau (WCB). We requested that WCB provide comments on the
draft report and that their comments indicate concurrence or non-concurrence with the
audit results and recommendations. On October 14, 2004, WCB provided a response to
the draft report. However,the commentsprovidedby WCB were not endorsedby the
Commission'sAudit Follow-up Official in accordancewith the Commission'sAudit
Follow-up Directive. Despiterepeatedrequestsfor properlyendorsedcommentsto this
report in the eleven(11) monthssincethe reportwas issuedin draft, no endorsed
commentshavebeenprovided. As a result,we havedecidedto issuethis report in final.
IfWCB providescommentsto this report,we will decideifit is necessaryto issuea
supplementalfinal report incorporatingthosecomments.

If you haveany questions,pleasecontactme or ThomasCline, AssistantInspector
General
          for
                Policy
                         and
                               Planning,
                                           at
                                                (202)
                                                        418-7890.
                                                                                            -
                                                                    L;~&~{A.X:t~
                                                                             \tR-L      y~--h~
                                                                     H. Walker FeasterIII

  Attachments

  Copy furnished:

  SusanDiverlo, Ed.D., Principal,St. JosephHigh School
  Chief, Wireline CompetitionBureau
  Mel Blackwell, Acting Vice President,Schoolsand LibrariesDivision, USAC
  PerfonnanceEvaluationand RecordsManagement,FCC Office of ManagingDirector
                                                                          R-GR-FCC-0008-2003

                United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   External Audits Division
                             12030 Sunrise Valley Drive, Suite 230
                                      Reston VA 20191

                                                                                 August 15, 2005


                             AUDIT REPORT
Memorandum

To:        Inspector General
           Federal Communications Commission

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Report on Audit of the E-rate Program at St. Joseph High School, St. Croix,
           U.S. Virgin Islands

        This report presents the results of our audit of the E-rate Program benefits received by
St. Joseph High School (School) from the Universal Service Fund. The E-rate Program provides
discounts on the cost of obtaining communication services, such as basic phone service, internet
access, and internal connections (wiring and network equipment), to eligible schools and
libraries. The objectives of this audit were to determine whether the School complied with the
E-rate Program rules and regulations and to identify Program areas that may need improvement.
We conducted this review in accordance with the Memorandum of Understanding between the
Department of the Interior Office of Inspector General, the Universal Service Administrative
Company, the Federal Communications Commission (FCC) Office of Managing Director, and
the FCC Office of Inspector General.

        We concluded that the School did not comply with key Program requirements of the
E-rate Program for Funding Year 2000. However, we were not able to determine whether the
School complied with all E-Rate Program requirements because of a lack of records. We
recommend that the FCC Office of Inspector General take the actions necessary to resolve the
report findings.

        We held an exit conference January 14, 2004, with the School’s Principal to discuss a
preliminary draft of this report, which was provided to the School on January 8, 2004. The
School’s January 28, 2004, response (Appendix 2) from the Principal expressed agreement with
the report’s findings.

        If you have any questions regarding this report, please contact me at (703) 487-5345.
Final Report on Audit of the E-rate Program at St. Joseph High School



                                                  Table of Contents
                                                                                                                      Page

INTRODUCTION ...................................................................................................       1
     Background ..................................................................................................     1
     Objectives, Scope, and Methodology ...........................................................                    2
     Scope Limitation ..........................................................................................       3

RESULTS OF REVIEW ..........................................................................................           4
     Summary ......................................................................................................    4
     Technology Plan Not Adequately Prepared .................................................                         4
        Required Plan Elements .........................................................................               4
        Overall Plan Deficiencies ......................................................................               5
     School Funding Not Budgeted or Approved ...............................................                           6
        Lack of Support for Payment of Non-Discounted
            Portion of Contracted Services ........................................................                    6
     Competitive Award Process Not Documented .............................................                            7
     Contracted Services Not Completed ............................................................                    8
     Record Keeping Inadequate .........................................................................               9
        Consultant’s Records Not Available ......................................................                     10

APPENDIX

1.        Summary of the Site Inspection of the Internal Connections and
             the Inventory Verification of Installed Equipment ................................                       11

2.        St. Joseph’s January 28, 2004, Response to the Preliminary
              Draft Report Discussed at the Exit Conference .....................................                     12

ACRONYMS

DOI ................Department of the Interior
FCC ................Federal Communications Commission
LAN ..............Local Area Network
MDF...............Main Distribution Frame
MOU ..............Memorandum of Understanding
OIG ................Office of Inspector General
SLD ................Schools and Library Division of USAC
USAC.............Universal Service Administrative Company
USF ................Universal Service Fund
Final Report on Audit of the E-rate Program at St. Joseph High School



                        INTRODUCTION
                              The Universal Service Fund (USF) provides affordable access to
Background                    eligible communications services for schools, libraries, rural health
                              care providers, low-income consumers, and companies serving
                              high-cost areas. On May 7, 1997, the Federal Communications
                              Commission (FCC) adopted a Universal Service Order (FCC Order
                              97-157) implementing the Telecommunications Act of 1996,
                              including the E-rate Program of the USF.

                              The Universal Service Administrative Company (USAC) is
                              responsible for administering the USF under the direction of the
                              FCCs Wireline Competition Bureau. The Schools and Library
                              Division of USAC (SLD) administers the E-rate Program. Under
                              the E-rate Program, eligible schools and libraries may receive
                              discounts from 20 to 90 percent of the cost of eligible
                              communication services, depending on economic need and location
                              of the beneficiary.

                              Discounts may be applied to three kinds of eligible communication
                              services:

                               • Telecommunication services, including basic phone service.
                               • Internet access.
                               • Internal connections, including wiring and network equipment
                                 needed to bring information directly to classrooms or library
                                 patrons.

                              In accordance with the Inspector General Act of 1978, as amended,
                              the FCC Office of Inspector General (OIG) has oversight
                              responsibilities for the USF as a Federal program of the FCC. The
                              FCC OIG has designed a plan of audit oversight to provide FCC
                              management with a reasonable level of assurance that E-rate
                              beneficiaries are complying with E-rate Program rules and
                              regulations and that E-rate Program controls are adequate to prevent
                              fraud, waste, and abuse.

                              We conducted this review in accordance with a Memorandum of
                              Understanding (MOU) between the Department of the Interior
                              (DOI) OIG, USAC, FCC Office of Managing Director, and the
                              FCC OIG. Under the MOU, DOI OIG will apply specific
                              procedures for the audit of beneficiaries of E-rate Program funds.




                                               1
Final Report on Audit of the E-rate Program at St. Joseph High School


                                       St. Joseph High School (School) was founded in 1964. The School
                                       is a church-based parishioner-supported school located in
                                       Frederiksted, St. Croix, U.S. Virgin Islands. The School offers
                                       academic programs for approximately 96 students in grades 9
                                       through 12. The School is accredited by the Middle States
                                       Association of Colleges and Schools.

                                      Our objectives were to determine whether the School complied with
Objectives, Scope                     the rules and regulations of the E-rate Program and to identify
and Methodology                       Program areas that may need improvement.

                                      The scope of the review was designed to test school compliance
                                      with the following E-rate Program requirements contained in Title
                                      47, Part 54 of the Code of Federal Regulations (47 CFR § 54.500
                                      through 47 CFR § 54.520):

                                        • The school certifies it has an approved technology plan.
                                        • The school determines its discount percentage based on the
                                          percentage of their student enrollment that is eligible for a free
                                          or reduced price lunch under the national school lunch program
                                          or a federally-approved alternative mechanism1.
                                        • Services rendered comply with the school’s application for
                                          E-rate funds and are installed or provided before the
                                          installation deadline.
                                        • The school uses a competitive process to select the most cost
                                          effective service provider.
                                        • The school purchases equipment and services in accordance
                                          with applicable procurement rules and regulations.
                                        • The applicant pays its portion of the pre-discounted costs.
                                        • The school certifies it has adequate resources to use the
                                          discounted services for which funding has been provided.
                                        • The school certifies that it has complied with all of the program
                                          rules.




1
  Because the U.S. Virgin Islands provide free meals or milk to all children in schools under their jurisdiction they are
not required to make individual eligibility determinations (7 CFR § 245.4). According to USAC, the U.S. Department
of Agriculture verified that all schools in the Virgin Islands are eligible for the free lunch program. The U.S. Virgin
Islands Department of Education substantiated that all students are eligible for the Child Nutrition Lunch Program. As a
result, USAC determined that all schools in the Virgin Islands were eligible for a 90 percent discount rate for the
funding years audited.




                                                           2
Final Report on Audit of the E-rate Program at St. Joseph High School


                                       Funds USAC committed and disbursed for Funding Years 2000 and
                                       2001 by service type follow:

                                         Funding         Amount               Amount
                                          Year          Committed            Disbursed*           Service Type
                                            2000                 $4,599                $0       Telecommunications
                                            2000                 14,375            12,938       Internet Access
                                            2000                123,913           123,911       Internal Connections
                                            2001                 $4,860                  $0     Telecommunications
                                         TOTALS              $147,747            $136,849

                                       * The School did not file a FCC Form 486, Receipt of Services Confirmation
                                       and USAC did not disburse any funds for Funding Year 2001.

                                       We performed our review of the School during the period March
                                       through December 2003. We visited the School in March and May
                                       2003 to conduct an entrance conference with the School
                                       administration, perform site inspections, conduct an inventory
                                       verification of the equipment installed by the service providers, and
                                       obtain documentation needed for our review.

                                       We conducted our review in accordance with Government Auditing
                                       Standards issued by the Comptroller General of the United States.
                                       As part of our review, we obtained an understanding of the
                                       School’s specific management controls relevant to the E-rate
                                       Program. Because of inherent limitations, a study and evaluation
                                       made for the limited purposes of our review would not necessarily
                                       disclose all material weaknesses in the control structure.

                                       Our audit was limited in that the School did not have complete
Scope Limitation                       records to substantiate whether it complied with all rules and
                                       regulations of the E-rate Program. School officials advised us that
                                       they hired a consultant to manage the School’s Funding Year 2000
                                       E-rate Program. Officials at two other schools2 told us that the
                                       consultant was no longer working or living in the area. In addition,
                                       officials told us that the School did not have the consultant’s
                                       records of the work performed on behalf of the School. As a result,
                                       we were not able to determine whether the School complied with all
                                       E-rate Program requirements.


2
  We were conducting E-rate Program Audits at St. Mary’s Catholic School and St. Patrick’s Catholic School, located
respectively in Christiansted and Frederiksted, St. Croix, U.S. Virgin Islands. The consultant was working for all three
schools.




                                                            3
Final Report on Audit of the E-rate Program at St. Joseph High School



                        RESULTS OF REVIEW
                                       We found that the School did not meet two of the key requirements
Summary                                for E-rate Program assistance. Specifically, the School:

                                         ¾ Did not have an adequately prepared technology plan.

                                         ¾ Did not budget or approve funding to pay the non-discounted
                                           portion of contracted services and for other technology related
                                           expenditures.

                                       In addition, we found that the School:

                                         ¾ Did not maintain records for the competitive award of three
                                           contracts totaling $152,056.

                                         ¾ Did not ensure that all contracted services were properly
                                           completed and that the planned local area network (LAN) was
                                           operational.

                                         ¾ Did not maintain adequate records of its E-rate program
                                           activities or those performed by the School’s consultant.

                                         These matters are discussed in more detail in the paragraphs that
                                         follow.

                                       The School’s technology plan (Plan) was deficient because it did
Technology Plan Not not adequately address the five technology plan elements that
Adequately Prepared USAC guidance required for technology plan approval.

      Required Plan                    USAC guidance states that the technology plans must address five
      Elements                         criteria that are core elements3 of the plan. The approver must
                                       determine that the technology plan:

                                           • Establishes clear goals and a realistic strategy for using
                                             telecommunications and information technology to improve
                                             education; (FCC Order 97-157, paragraph 573)
                                           • Has a professional development strategy to ensure that staff
                                             know how to use these new technologies to improve
                                             education; (FCC Order 97-157, paragraph 572 (4))
                                           • Includes an assessment of the telecommunication services,
                                             hardware, software and other services that will be needed to
                                             improve education services; (FCC Order 97-157, paragraph
                                             572)

3
    We determined that four of the five criteria are based on FCC Order 97-157. See reference in each requirement.


                                                            4
Final Report on Audit of the E-rate Program at St. Joseph High School


                                • Provides for a sufficient budget to acquire and support the
                                  non-discounted elements of the plan: the hardware, software,
                                  professional development, and other services that will be
                                  needed to implement the strategy; (FCC Order 97-157,
                                  paragraph 574) and
                                • Includes an evaluation process that enables the school to
                                  monitor progress toward the specified goals and make mid-
                                  course corrections in response to new developments and
                                  opportunities as they arise.

   Overall Plan              We identified four overall deficiencies in the School’s Plan as
   Deficiencies              follows:

                                • The Plan did not identify the period it covered or the effective
                                  date.
                                • There was no signature of a School official to signify that the
                                  Plan was a policy and planning document of the School.
                                • Except for the cover, the Plan did not indicate that it was for
                                  St. Joseph High School.
                                • Three sections of the School’s Plan were the same as sections
                                  in the technology plans for two elementary schools where the
                                  consultant was also working, and thus may not have reflected
                                  the specific needs of the School.

                             In addition, the Plan did not specifically address the five required
                             core elements as follows:

                                    Plan goals were general and the Plan lacked a strategy
                                     describing how the School would use technology to
                                     improve the education of its students.
                                    The Plan talked in generalities about training the staff and
                                     students in basic skills on how to use a computer. The
                                     Plan did not discuss how the staff would be trained to
                                     integrate technology into the education process or how
                                     computer technology will be used to enhance/ improve
                                     education in the core curriculum areas.
                                    The Plan identified some hardware the School anticipated
                                     purchasing, but there was no timetable for acquiring the
                                     hardware or budget information for financing the
                                     purchases. The Plan did not discuss any specific
                                     education-related software applications. Overall, the Plan
                                     did not specifically identify how addressing the School’s
                                     technology needs (hardware, software, or training) would
                                     improve education services.
                                    The budget and funding section did not identify financing
                                     sources or otherwise substantiate that the School had
                                     adequate resources for acquiring any necessary hardware
                                     and software, and for training staff on the use of the new
                                     services.


                                               5
Final Report on Audit of the E-rate Program at St. Joseph High School


                                             The Plan did not identify specific elements or criteria by
                                              which to measure progress. The evaluation section did
                                              state that the “Technology Committee” would monitor
                                              and evaluate progress and that the “Committee” would
                                              report progress to the administration. However, the Plan
                                              did not contain any information concerning the
                                              organization and staffing of the “Technology Committee”
                                              or the “Committee”.

                                     The School had not budgeted or approved funding to pay the
School Funding Not                   non-discounted portion of the contracted services or the cost of any
Budgeted or                          necessary hardware, software, and/or staff training to utilize the
Approved                             acquired E-rate Program services effectively. Title 47 CFR
                                     § 54.504(b)(2)(v) requires4 schools to certify on FCC Form 470
                                     (Description of Services Requested and Certification) that:

                                            All of the necessary funding in the current funding
                                            year has been budgeted and approved to pay for the
                                            “non-discount” portion of requested connections
                                            and services as well as any necessary hardware or
                                            software, and to undertake the necessary staff
                                            training required to use the services effectively.

                                     As already noted, the School’s Plan did not identify financing to
                                     support the new services. When asked about a technology budget,
                                     School personnel told us that U.S. Department of Education Title
                                     VI monies and donations would be used for its hardware and
                                     software purchases. However, the School could not provide an
                                     approved budget for technology and did not receive any Title VI
                                     monies in FY 2000 or FY 2001. Lacking a budget and approved
                                     funding for technology, the School did not meet a key requirement
                                     for receiving E-rate Program discounts.

      Lack of Support                The School did not have records to substantiate that it had paid the
      for Payment of                 non-discounted portion of contracted services. The School had two
      Non-Discounted                 contracts for internal connections and a contract for internet access
      Portion of                     as follows:
      Contracted
      Services                       •   The School contracted with Dell Marketing, Inc. to provide the
                                         network servers, racks, uninterrupted power supplies,
                                         installation, and configuration of the main distribution frame
                                         (MDF) of the LAN. According to School personnel, the School
                                         did not have any records of and they did not know how or if the
                                         $4,265 non-discounted portion of the Dell contract was paid.
                                     •   The School contracted with Lindsey Electronics, Inc. for the
                                         LAN backbone cabling and wiring, from the MDF to the

4
    Requirement contained in FCC Order 97-157, Paragraph 577.


                                                         6
Final Report on Audit of the E-rate Program at St. Joseph High School


                                         routers/hubs, and drops in the School’s nine buildings.
                                         According to School personnel, the School did not have any
                                         records of and they did not know how or if the $9,503
                                         non-discounted portion of the contract was paid. We were not
                                         able to confirm whether the School had paid Lindsey
                                         Electronics because the company was no longer in business.
                                     •   The School contracted with Virgin Islands Telephone
                                         Corporation, for internet access. According to School
                                         personnel, the School did not have any records of and did not
                                         know how or if the $1,438 non-discounted portion of the
                                         contract was paid.

                                     Title 47 CFR § 54.504(a) requires schools to seek competitive bids
Competitive Award                    and § 54.511(a) requires that schools selecting a provider of eligible
Process Not                          services shall carefully consider all bids submitted and may
Documented                           consider relevant factors other than the pre-discount prices
                                     submitted by providers. Title 47 CFR § 54.516(a) requires schools
                                     to maintain for their purchases of telecommunications and other
                                     supported services at discounted rates the kind of procurement
                                     records that they maintain for other purchases.

                                     The FCC competitive bid system consists of USAC posting the
                                     applicant’s completed FCC Form 470, which describes the services
                                     requested, to an internet website5. Prospective service providers
                                     may contact the applicant for additional information and/or submit a
                                     bid to the school for the requested services. To give prospective
                                     service providers time to submit bids, the applicant must wait
                                     28 days after the internet posting before entering into a contract.
                                     We determined from USAC documentation that the School’s
                                     Form 470 was posted to the USAC website and that the School
                                     waited the requisite 28 days before signing contracts.

                                     Although the School did not have written procurement
                                     requirements, we found that it did follow an established process,
                                     based on sound business and accounting practices, to document its
                                     purchases. The School maintained files that included purchase
                                     requests, vendor quotes or prices, management’s approval to
                                     purchase, receipt of goods or services, invoices, and payment
                                     approvals. However, the School did not have any records of its
                                     selection and award process. According to School personnel, the
                                     consultant negotiated with the service providers and recommended
                                     the firm the School should select.




5
 Title 47 CFR § 54.504(a) states “These competitive bid requirements apply in addition to state and local competitive
bid requirements and are not intended to preempt such state or local requirements.”


                                                           7
Final Report on Audit of the E-rate Program at St. Joseph High School


                                      The School did not ensure that the service provider completed the
Contracted Services                   contracted services in accordance with the terms of the contract for
Not Completed                         installing the School’s LAN backbone cabling and wiring. As a
                                      result, only part of the planned LAN configuration is operational
                                      and cannot be fully utilized for educational purposes as planned.

                                      USAC approved funding for a service provider to connect all nine
                                      School buildings to the MDF via the LAN. The contracted services
                                      consisted of installing underground cabling/wiring from the MDF
                                      located in the School’s computer lab to the router/hubs in the other
                                      eight buildings and providing wiring to install drops6 in 15 physical
                                      locations within the nine buildings. During our March 2003 site
                                      visit, a verification of contracted services was performed (see
                                      Appendix 1 for specific details). In summary, we determined that:

                                           The underground cabling/wiring to connect the nine campus
                                            buildings had been installed.
                                           Eight router/hubs were installed in seven of the nine campus
                                            buildings.
                                           The wiring for drops had been installed in 15 physical
                                            locations within the nine buildings.
                                           The cabling/wiring between the MDF and 4 routers/hubs
                                            and nine drop locations in 3 buildings had been completed
                                            to connect the servers, router/hubs, and drops as a
                                            functioning LAN. (School officials told us the School hired
                                            and paid a contractor with non E-rate funds to finish the
                                            connections in one of the three buildings.)
                                           The wiring was not completed in six buildings containing
                                            four routers/hubs and six drop locations. Therefore, the six
                                            building were not connected to the MDF and could not
                                            function as part of the LAN.

                                      School officials did not monitor the progress of the service provider
                                      and did not perform oversight of the consultant. A School official
                                      stated that the School relied on the consultant to provide oversight
                                      of the progress and completion of the service provider’s contract.
                                      However, the School’s consultant did not ensure that the service
                                      provider performed all contracted services.

                                      In addition, a former weakness in the USAC procedures permitted
                                      the School to complete and file FCC Form 486 (Receipt of Services
                                      Confirmation Form) with USAC before the contracted services
                                      were completed and accepted. USACs procedures permitted the
                                      early filing of the FCC Form 486 because the contracted services
                                      were scheduled to be delivered in July 2000.


6
 The contract did not specify the total number of drops to be installed in 15 physical locations within the nine School
buildings.


                                                            8
Final Report on Audit of the E-rate Program at St. Joseph High School


                                     On June 5, 2000, the School filed the FCC Form 486. On July 20,
                                     2000, the service provider submitted the FCC Form 474 (Service
                                     Provider Invoice Form) and its detailed invoice7 to USAC for the
                                     discounted amount of $85,525.11, indicating that the last day of
                                     work was performed on July 19, 2000. The service provider
                                     claimed the full discounted portion even though not all of the
                                     contracted services had been completed. USAC disbursed the full
                                     discounted portion of $85,525.11 to the service provider for
                                     incomplete services.

                                     The School did not comply with the requirement for record keeping.
Record Keeping                       Title 47 CFR § 54.516 Auditing, establishes record keeping and
Inadequate                           production of records requirements for schools as follows:

                                            (a) Recordkeeping requirements. Schools and
                                            libraries shall be required to maintain for their
                                            purchases of telecommunications and other
                                            supported services at discounted rates the kind of
                                            procurement records that they maintain for other
                                            purchases.
                                            (b) Production of records. Schools and libraries
                                            shall produce such records at the request of any
                                            auditor appointed by a state education department,
                                            the Administrator, or any state or federal agency
                                            with jurisdiction.

                                     In addition, FCC Form 471, Block 6, certification No. 32 states, “I
                                     (school) recognize that I may be audited pursuant to this application
                                     and will retain for five years any and all worksheets and other
                                     records I rely upon to fill out this application.”

                                     In this particular review, we had to significantly limit the scope of
                                     this audit or rely on time-consuming methods because of the lack of
                                     records to substantiate the School’s compliance with program rules
                                     and regulations. For example, as discussed previously we found
                                     that the School could not document the competitive award process
                                     or the payment of the non-discounted portion of contracted services.
                                     In addition, we found that the School could not document the work
                                     performed by the consultant, as discussed in the following section.




7
  USAC revised its invoicing procedures for Funding Year 2001 to require schools to certify that the invoiced services
were delivered and accepted by the school. A school’s signed ‘Service Certification’ and a copy of a detailed vendor
invoice must be submitted with the FCC Form 474 to USAC.


                                                           9
Final Report on Audit of the E-rate Program at St. Joseph High School


   Consultant’s Records The School agreed to pay a consultant $750 to manage its E-rate
   Not Available        Program - $400 was to be paid initially and $350 was to be paid
                        when the work was completed. On December 10, 1999, the School
                        Principal used her own funds to pay the consultant the initial $400.
                        On June 2, 2000, the Principal wrote a check on her own account to
                        pay the remaining $350. The School provided documentation
                        showing that it reimbursed the Principal for these two payments to
                        the consultant.

                             School personnel told us that:

                                  The consultant prepared and filed all of the FCC documents
                                   and provided the documents to the School for signature
                                   when required for filing purposes.
                                  The consultant negotiated with service providers and
                                   recommended whom the School should contract with for
                                   requested services.
                                  The School did not have the consultant’s records.

                             We determined that the consultant was no longer living or working
                             in the area. Consequently, we could not review the consultant’s
                             records or talk with him.

                             Our review disclosed that there were management control
                             deficiencies with respect to the work performed by the consultant.
                             Specifically, we found that:

                                  The School’s technology plan did not meet FCC criteria.
                                  Information on the FCC Forms 470 and 471 were not
                                   supported.
                                  The School’s records supporting the E-rate application
                                   process were incomplete; consequently, the School did not
                                   meet the requirement to maintain records supporting its
                                   E-rate application.
                                  The School was not able to respond fully to all of our
                                   requests for information or supporting documentation.




                                              10
Final Report on Audit of the E-rate Program at St. Joseph High School


                                                                                                     APPENDIX 1


                               St. Joseph High School
                      Frederiksted, St. Croix, U.S. Virgin Islands

          Summary of the Site Inspection of the Internal Connections
            and the Inventory Verification of Installed Equipment
                                                  Hubs and Drops
 Building        Physical           Hub/            Connected
   No.          Locations*         Switch**        To the Server                       Comments
      1               1                 1                 No            Wiring not completed.
      2               1                 1                 No            Wiring not completed.
      3               1                 1                 No            Wiring not completed.
      4               2                 1                 Yes           School hired a contractor to make
                                                                        connections to LAN.
      5               1              None                 No            Wiring not completed.
      6               1               1                   No            Wiring not completed.
      7               2               1                   Yes           Computer Lab/MDF
      8               1              None                 No            Wiring not completed.
      9               5               2                   Yes           Administrative Offices and Library
   Totals            15                 8                3-Yes
                                                         6-No


*The contract provided for a LAN that connects 15 physical locations within the nine campus buildings to the Main
 Distribution Frame (MDF). The contract did not identify the placement of the 15 physical locations. During our
 inspection of the LAN, we found that the 15 physical locations coincided with where the service provider placed the
 drop boxes. The contract did not specify the total number of drops or the number of drops at each location.
**The contract specified that each room would have a hub/switch. The hub/switch, which functions as the
 Intermediate Distribution Frame, provides LAN connectivity between the drops and the MDF. Buildings 1 through 8
 have one classroom each and building 9 has the administrative offices and the library. We found that two
 hub/switches were sufficient to connect the five physical locations for drops in building 9 to the LAN.




                                                         11
Final Report on Audit of the E-rate Program at St. Joseph High School


                                                                        APPENDIX 2




                                             12
